                      8(a) Competitive Business Mix Requirements

                          AUDIT REPORT NO. 5-3-E-101-021

                                  September 29, 1995




This report may contain proprietary information subject to the provisions of 18 USC 1905
and must not be released to the public or another agency without permission of the Office
of Inspector General.
             8(a) COMPETITIVE BUSINESS MIX REQUIREMENTS

                             TABLE OF CONTENTS


                                                              PAGE
SUMMARY

INTRODUCTION

    A.     Background                                            1
    B.     Objectives, Scope and Methodology                     1
    c.     Prior Audits                                          2
RESULTS OF AUDIT
    1.     SBA Has Not Effectively Enforced Compliance With
           Competitive Mix Requirements                          3
    2.     SBA Did Not Determine Whether The 8(a) Program
           Was Successful                                       10
APPENDIX
    1.     Management Response to Draft Report.                 14
    2.     Report Distribution                                  15
                      U.S. SMALL BUSINESS ADMINISTRATION
                         OFFICE OF INSPECTOR GENERAL
                               Washington, D.C. 20416



                                                                    AUDIT
                                                                   REPORT
                                                           Issue Date:
                                                           September 29, 1995


                                                           Number: 5-3-E-01 0-021



TO:          Calvin Jenkins
             Associate Administrator for Minority Enterprise Development
              [FOIA Ex. 6]
FROM:        Peter L. McClintock
             Assistant Inspector General for Auditing

SUBJECT:     Audit Report on the 8(a) Competitive Business Mix Requirements


     We performed an audit of the 8(a) competitive business mix requirements. The
summary section on page i of the report provides a synopsis of the audit findings and
recommendations.

        The findings included in this report are the conclusions of the Auditing Division
based upon the auditors' testing of the auditee's operations. The findings and
recommendations are subject to review and implementation of corrective action by your
office following existing Agency procedures for audit follow-up and resolution.

       Please provide us your management decisions for the recommendations within
30 days. Record your management decision on the attached SBA Form 1824,
"Recommendation Action Sheets" and show either your proposed corrective action and
target date for completion, or an explanation of your disagreement with our
recommendations.

      Should you or your staff have any questions, please contact Garry L. Duncan at
205-7732.
                                         SUMMARY


        Competitive mix regulations for the Minority Small Business and Capital Ownership
Development Program (8(a) Program) established required targets in 1989 for 8{a)
companies to obtain an increasing percentage of non-8(a) business during their last 5
years (the Transitional stage) in the Program. This was to assure that 8(a) companies
prepare for the competitive marketplace after 8(a) Program assistance ends, instead of
becoming unduly reliant on sole source 8(a) contracts. The Auditing Division of the Office
of Inspector General (OIG) reviewed SBA's implementation of the statutory competitive mix
requirements, i.e., the percentage of total revenue that has to be non-8(a), to determine
whether these requirements were achieved and whether meeting them improved 8(a)
participants' chances for success after leaving the Program.

        We found that SBA's actions to ensure that companies met applicable competitive
mix targets were not effective. At February 9, 1995, 36 percent of the companies reporting
8(a) revenues and subject to the competitive mix requirements did not comply with these
requirements. More significantly, these noncomplying companies received about $1.4
billion, or 63 percent, of total 8(a) revenues reported by companies subject to the mix
requirements in their prior fiscal year. Although SBA regulations identified a range of
remedial actions that could be taken to improve compliance, the specific actions were left
to the discretion of the individual SBA Business Opportunity Specialist (80S). We found
that when 8(a) companies did not meet the required competitive mix target, SBA personnel
often took minimal or no action. Thus, companies were not compelled to comply with the
regulations.

        SBA did not measure the success of the 8(a) Program, as defined by the Congress,
namely " ... the number of firms that exit the Program without being unreasonably reliant
on section B(a) contracts and that are able to compete on an equal basis in the
mainstream of the American economy." Procedures did not provide for compiling and
reporting data on the number of companies that met their competitive mix requirements
while in the 8(a) Program and those that remained in business after they no longer had
B(a) revenues. Thus, SBA could not determine whether the 8(a) Program was successful
in relation to competitive mix requirements.

        As a result of this lack of data, we could not accomplish the second objective of this
audit, i.e., to determine whether there was a correlation between good competitive mix
and "success." Although we developed and sent questionnaires to former 8(a) participants
and SBA 80S's to obtain information on competitive mix, the results were inconclusive.
Questionnaire responses showed that many companies that remained in business for
several years after program exit still had substantial revenue from carryover 8(a) contracts.
By including companies with 8(a) revenues in the number of companies still in business
after leaving the 8(a) Program, SBA did not report on the number of former 8(a) companies
that are able to compete on an equal basis in the mainstream of the American economy.

       We are recommending that the Associate Administrator for Minority Enterprise
Development (1) implement mandatory limits on the dollar value of 8(a) contracts that can
be awarded to any 8(a) company not meeting its competitive mix requirement and (2)
establish procedures to determine whether the 8(a) Program is successful, as defined by
Congress.

       The AA/MED generally concurred with our recommendations. We evaluated his
comments, and based on them, modified one recommendation. His comments are
Appendix 1 of this report. Our analysis of these comments is contained. on pages 9 and
13 of this report.

      The findings included in this report are the conclusions of the OIG Auditing Division
based upon testing of the auditee's operations. The findings and recommendations are
subject to review, management decision and corrective action by Minority Enterprise
Development according to existing Agency procedures for follow-up and resolution.




                                            ii
                                        INTRODUCTION

Background

       The Small Business Act of 1953, as amended, authorizes the 8(a) Program. The
B(a) Program provides assistance to small businesses owned and controlled by socially
and economically disadvantaged individuals. The assistance is primarily directed toward
ensuring a successful transition into the mainstream of the free enterprise system.

       The 8(a) Program is administered by the Office of Minority Enterprise Development
(MED). Under the S(a) Program, SBA, as the prime contractor for other Federal agencies,
subcontracts with an 8(a) company for needed supplies and/or services. Participation in
the 8(a) Program is limited to a maximum of nine years: four years in the Developmental
stage and five years in the Transitional stage.

      The legislative history of Public Law 100-656, the "Business Opportunity
Development Reform Act of 1988," reflects that

      • . • too few concerns that have exited the Program have been prepared to compete
      successfully in the open marketplace on competitive procurement, and many concerns have
      developed an unhealthy dependency on sole-source contracts by the time they are required
      to leave the Program .••.

and declares that one of the Law's purposes is to encourage the development of
companies that would not become over reliant on 8(a) contracts and would be successful
in competing on an equal basis in the American economy. Pursuant to Public Law 100-
656, Title 13, Code of Federal Regulations, §124.312 requires firms to achieve certain
targets of non-8(a) contract revenue in each year of the Transitional stage. The targets
are known as "non-S{ a) business activity targets" and are expressed as a percentage of
total revenue. These regulations also provide various remedial measures that SBA district
offices can take when a participant has not achieved these requirements.

        Program participants are required to provide SBA annual financial statements with
breakdowns of 8(a) and non-8(a) revenues. At the end of each transition year, the SBA
Business Opportunity Specialist (BOS) is required to determine and document whether the
participant has met competitive mix requirements.

Objectives, Scope. and Methodology

       The audit objectives were to determine (1) whether non-8(a) competitive mix
requirements were effectively carried out and (2) if meeting these requirements improved
8(a) participants~ chances of success after leaving the 8(a) Program.




                                                 1
        Questionnaires were mailed to all649 former 8(a) participants we identified that
exited the 8(a) Program between October 1, 1988, and September 30, 1992. We received
157 usable responses to these questionnaires, a 24 percent response rate. Of those, 139
stated they were still in business and 18 stated they were not. For those companies that
did not respond, we requested Dun and Bradstreet reports to determine whether each
company still existed. We obtained the B(a) and non-B(a) revenues on these companies
from the 8(a) Financial Information System (FIS) and calculated the percentage of non-B(a)
revenue to total revenue. The universe of participants was developed from the MED data
system, regional office data, and other information maintained by the MED Central Office.
To assist us in the development and testing of the questionnaire, we visited 19 8(a)
companies.

      A second questionnaire was mailed to 141 BOS's. We received 90 responses, a
64 percent response rate.

        We analyzed the data contained in the FIS to determine whether 8(a) companies
in the Transitional stage and reporting 8(a) sales were in compliance with their competitive
mix requirements. We used FIS data as of February 9, 1995, which contained 8(a) and
non-S( a) sales for the most recent period reported by the companies. Transition years
were determined by calculating the difference between the financial statement ending date
and scheduled program exit dates. Non-S(a) mix percentages from reported data were
calculated and compared with applicable competitive mix requirements. While the
financial information may not coincide exactly with program year dates, the data provided
a good indication of compliance with competitive mix requirements.

         We reviewed the applicable laws, regulations and procedures, interviewed SBA
management officials, and analyzed data in the Atlanta, Birmingham, and Washington
district offices. The audit was performed between August 1993 and February 1995. The
completion of the audit was extended due to the initial lack of responses to our
questionnaires. The audit was conducted according to Government Auditing Standards.


Prior Audits

       No prior audits of 8(a) competitive business mix requirements have been conducted
by the Office of Inspector General.




                                             2
                                         RESULTS OF AUDIT

Finding 1 -      SBA Has Not Effectively Enforced Compliance With Competitive Mix
                 Requirements

        SBA did not ensure that 8(a) competitive mix requirements were met by 8(a)
companies. Over one-third of 8(a) companies in the Transitional stage with 8(a) revenue
were out of compliance with competitive mix requirements. More significantly, 63 percent
of the 8(a) revenues awarded to Transitional stage companies in the last financial period
reported went to companies that did not comply. Congress amended the Small Business
Act in November 1988, directing SBA to establish business activity targets applicable
during each company's Transitional stage (years five through nine) in the 8(a) Program.
Each year's required non-8(a) business target, expressed as a percentage of total
revenue, reflects a gradual increase from the previous year in business activity outside the
8(a) Program. SBA personnel had the discretion of selecting which remedial actions to
impose on 8(a) companies not meeting the required targets. For the most part, SBA
personnel took minimal or no action; therefore, 8(a) companies were not compelled to
comply with the regulations. The lack of enforcement contributed to the concentration of
8(a) dollars with a few companies and many 8(a) companies were not developing their
non-8(a) business. Further, companies continued to have the privilege of obtaining sole
source 8(a) contracts even thougll they were not complying with the regulations to
effectively develop non-8(a) business.

        Pursuant to Public Law 100-656, Title 13, Code of Federal Regulations,§ 124.312
established non-S(a) business activity requirements for 8(a) companies in the Transitional
stage. In the first transition year, 15 to 25 percent of all revenues should be non-8(a). The
percentage basically increases 10 percent each year and, in the fifth transition year, non-
S(a) revenue is supposed to be 55 to 75 percent oftotal revenue. 1 Section 124.312 also
provides remedial measures that SBA can take when 8(a) companies do not meet the
required business activity targets. The remedial actions include, but are not limited to

      - obtaining counseling or management/technical assistance,

      - conditioning future 8(a) sole source contracts on the Participant's taking affirmative
        action to expand its competitive business activity,

      - reducing the Participant's approved level of 8(a) support,

      -reducing or eliminating soJe..:source 8(a) contracts, and



        1
           Firms with fewer than 5 years in the S(a) Program, as of August 15, 1989, were subject to lower
targets or other less specific requirements.

                                                     3
     - terminating the Participant from the 8(a) Program where a company made no effort
       to obtain non-B(a) revenues.

The regulations further state that new 8(a) contracts should only be approved if the 8(a)
company would remain in compliance with the competitive mix requirement if they received
the contract. According to 13 CFR § 124.308(e):

         If the procuring agency Identifies a particular 8(a) concern for a sole source award, SBA will
         determine whether an appropriate match exists. (1) Once a procurement Is deemed suitable
         for acceptance as an 8(a) sole source contract, it will normally be accepted on behalf of the
         participant recommended by the procuring agency, provided that ••• The award of the
         contract would not result in the Participant exceeding its ..• business mix requirements
         established under§ 124.312.

        SBA did not take effective action to enforce compliance with competitive mix
requirements. Based on the responses of 90 80S's to our questionnaire, 65 percent of
the actions were "minimal" or "no action," permitting continued award of 8(a) contracts that
could preclude the company from reaching its competitive mix target. Only 32 percent of
the actions 80S's stated they took were substantive actions to increase the company's
non-B(a) business by limiting the 8(a) contracts it could receive. Table 1 shows the
breakdown.

                                                   TABLE 1

 Action Taken 2                                                    Percentage of total     Number of
                                                                   aetion taken            times action
                                                                                           taken
 1. Minimal or no aetlon                                                    65                    186
    a.       No action taken                                                           7                  20
    b.       Required a remedial action plan.                                         39                  112
    c.       Required participant to obtain business                                  19                  54
             development assistance.
 2. Substantive actions.                                                    32                     92

    a.       Reduced approved level of support.                                       17                  48
    b.       Reduced or eliminated sole source 8(a} contracts.                        15                  42
    c.       Recommended participant for termination.                                  1                   2

 3. Other                                                                    3                     8



         2
             In some instances of non-compliance, more than one action may have been taken.

                                                        4
        Some 8{a) companies have been significantly out of compliance with the
competitive mix requirements for successive years and SBA has taken minimal or no
action to rectify this. In reviewing files of four 8(a) companies in two district offices, SBA
personnel only recommended significant remedial measures for one company. For two
companies, SBA took minimal or no action to bring them into compliance even though
both companies were significantly out of compliance during all three transition years.
Below are summaries of SBA's minimal actions to bring these two companies into
compliance.
                                         Company No. 1

 Transition    Minimum       Non..S(a)      SBA Action Taken
 Year          Non..S(a)     Business
               Target        Obtained

      1            15%           3%         No remedial action recommended. The district office
                                            incorrectly reported the company complied with the mix
                                            requirements because of an Incorrect calculation.
      2            25%           4%         No remedial action recommended. The BOS approved
                                            contract matches by incorrectly stating that the company
                                            complied with mix requirements.

      3            35%           4%         SBA required the company to obtain 70) assistance in
                                            evaluating their marketing plan and report their non..S(a)
                                            sales activity on a more frequent basis.

                                         Company No. 2

 Transition    Minimum       Non..S(a)      SBA Action Taken
 Year          Non-8(a)      Business
               Target        Obtained

      1            15%           3%         SBA recommended monitoring, working with the
                                            company and providing 70) assistance "if suitable." The
                                            BOS wrote, "In the field this firm pursues, it is
                                            unreasonable to hold it to %:

      2            25%           3%         S8A reduced requested 8(a) support levels for years 3
                                            and 4, advising the company that non..S(a) sales must
                                            be more in line with the law or it may be ineligible for
                                            future B(a) contracts. Later, the 80S approved 2
                                            contracts after requiring submission of a remedial plan.
                                            The files contained no analysis of the company's
                                            progress in meeting its non-8(a) business targets.
      3            35%          10%         Although the company submitted the required annual
                                            update Information about 2 months prior to our review,
                                            the 80S had not determined whether the company was
                                            in compliance with its business mix target. Therefore, no
                                            action had been recommended or taken.


                                               5
        In the final instance (Company No. 3), the company was significantly out of
compliance at the end of each of the first three transition years, and SBA took minimal or
no action. Three months after the end of the fourth transition year, SBA finally
recommended strong action to attempt to bring the company into compliance. At this point,
SBA significantly reduced the company's S(a) support level in an attempt to have the
company increase its non-8(a) business. At the time of this action, the company only had
9 months remaining in the 8(a) Program. Therefore, this action may not have had much
effect on promoting non-B(a) business. Below is a summary of SBA's actions.

                                             Comoany No. 3

 Transition       Minimum         Non-8(a)       SBA Action Taken
 Year             Non-S{a)        Business
                  Target          Obtained

        1             15%             2%         No remedial action taken. SBA did not conduct an
                                                 annual review.

        2             25%             3%         No remedial action taken. SBA did not conduct an
                                                 annual review. The district office continued to approve
                                                 large dollar value S(a) contracts.

        3             35%             18%        The matter of non-compliance was discussed with the
                                                 8(a) owner. SBA stated that the district office "will
                                                 follow-up with 70) assistance & training workshop." The
                                                 district office continued to approve 8(a) contracts.

        4             45%             4%         SBA recommended a reduction in the 8(a) support level
                                                 from $8.5 million to $3 million.

        Large amounts of 8(a) contract revenues were received by companies that did not
comply with their competitive mix targets. In fact, 63 percent ($1.4 billion) of the $2.2
billion annual8(a) revenues reported by 8(a) companies in the Transitional stage went to
companies failing to meet their competitive mix targets. 3 Thirty-six percent, or 372, of the
1,037 companies it:l the Transitional stage, which had some 8(a) revenue, were not in
compliance with their required competitive mix targets. Details are provided in Table 2.




      3
         This is based on the latest financial information in the FIS at February 9, 1995. The universe of
companies was all 8(a) companies in the Transitional stage with scheduled exit dates after September 30,
1994.

                                                     6
                                               TA8LE2

  Transition       Non-8(a)     No. of             No. of            Percent of        S(a)
  Year             mix target   companies in       companies not     companies not     Revenues of
                                Transition         meeting           meeting           Firms Not
                                having 8{a)        minimum mix       minimum mix       Meeting Mix
                                revenue                                                (In Millions)

        1           15-25%                  345                 96              28%             $235

        2           25-35%                  374               113               30%               401
        3           35-45%                  161                65               40%               302
        4         . 45-55%                  138                 86              62%              393
        5           55-75%                   194                12              63%                44
  Total/average                           1,037               372               36%           $1,376

These non-complying companies were located throughout the 10 S8A regions. Non-
compliance ranged from a high of 53 percent of the companies in Region Ill to a low of 19
percent of the companies in Region V. Additionally, the longer a company was in the
Transitional stage, the more likely that the company was out of compliance with the
competitive mix requirements.

       Although SBA did not effectively enforce competitive mix requirements and many
companies were not in compliance with these requirements, an overwhelming majority of
the 80S's and former S(a) participants, who responded to our questionnaires, agreed that
a high or increasing level of non-S( a) support was important to success after leaving the
S(a) Program. Ninety-two percent of the 80S's agreed that companies having maintained
a high ratio of non-S(a) sales have a greater chance of continuing in business after leaving
the 8(a) Program. None disagreed with the statement, while 8 percent stated they didn't
know. In a separate survey we conducted, 83 percent of the former 8(a) participants
agreed that increasing the level of 8(a) sales prior to exit from the 8(a) Program was of
somewhat to extreme importance. Ten percent stated it was of little or no importance, and
7 percent did not respond.

       S8A personnel had the discretion to select the type of remedial action that was
needed to bring a company into compliance with competitive mix requirements. Based on
the questionnaire responses and the extent of non-compliance with these requirements,
the remedial measures taken were ineffective. Many 80S's recommended milder courses
of action due to various circumstances. To determine why 80S's would choose a mild


        4
            The number of companies in Year 5 Is small since not many companies had reached the fifth
transition year at the time of our data collection.

                                                   7
course of action, we asked them: "Have any of the following circumstances influenced your
decisions about the extent of actions taken/recommended for an 8(a) concern's failure to
meet competitive mix targets? (Please check all that apply.)" Table 3 reflects the answers
of those having firms out of compliance.

                                                 TABLE 3

 Circumstance                                                                      BOS's responding
                                                                                   afflnnatively

 Restricting 8(a) contracts could severely hurt the concern's financial posture.                      68%

 SBA approved a large 8(a) contract and concern could not get non-S(a)                                50%
 contracts large enough to achieve target

 The concern had competitive 8{a} contracts.                                                          48%

 Concern was close to graduation.                                                                     37%
 Concern exerted pressure or had other Influential connections.                                       7%

 Other circumstances                                                                                  42%

       In May 1995, SBA initiated and later withdrew a proposed rule requiring aos•s to
take strong action against S(a) companies out of compliance with the competitive mix
requirements. This proposed rule is planned for inclusion in a proposal for more wide
ranging changes in the 8(a) Program. The Office of Inspector General recommended and
MED proposed that non-complying companies would be limited in the following year to an
amount of 8(a) contracts that would bring it into compliance with mix requirements,
assuming the companies had the same non-8(a) sales as in the prior year. The then
Associate Administrator for Minority Enterprise Development (AA/MED) wrote:

       This rule, if adopted in final form, would make SBA's policy on the
       computation and effect of non-S( a) business activity targets more consistent
       with the Small Business Act. Recent audits and reports have revealed that
       the SBA's current regulations fail to encourage companies to develop in
       ways that will ensure their success in the commercial marketplace after
       program graduation. This is attributed in part to the SBA's failure to ensure
       that the companies meet non-8(a) business activity targets during the
       transitional stage of program participation....

       . . . When a firm fails to meet its non-S( a) business activity target, the SBA
       would limit the amount of B(a) contracts a firm could receive during the
       following year.




                                                     8
      Because SBA employees did not effectively enforce compliance with competitive
mix requirements, large B(a) companies continued to obtain sole source 8(a) contracts
even though they did not meet the competitive mix targets. These companies were not
developing their non-S( a) business so they could effectively compete for business after
completion of their term in the 8(a) Program. Further, this permitted some companies to
amass extraordinarily large amounts of revenues from 8(a) contracts, thereby exacerbating
the concentration of B(a) contracts with a few companies.

Recommendation

1A    We recommend that the Associate Administrator for Minority Enterprise
      Development implement mandatory limits on the dollar value of 8(a) contracts for
      every 8(a) company not meeting its competitive mix requirement. Each non-
      complying company's 8(a) support level for the next year should not exceed the
      amount that would bring it into compliance with competitive mix requirements
      assuming its non-8(a) revenues from the prior year remained constant.

SBA Management's Response

       The AAIMED concurred with the recommendation. Additionally, according to the
AAIMED, MED is considering issuing the proposed regulation they withdrew in June 1995
(see page 8 of this report for a discussion of the proposed regulation} independent of the
more wide ranging changes included in the Office of General Counsel regulatory
streamlining initiative. The complete text of his response is contained in Appendix 1.

Evaluation of Management Response

      The MIMED's concurrence is responsive to the recommendation.




                                            9
 Finding 2 -· SBA Did Not Determine Whether The 8{a) Program Was Successful

         SBA did not measure the success of the 8(a) Program as defined by Congress.
Specifically, SBA did not determine or report on the number of former 8(a) companies that
(1) had not met their competitive mix requirements while in the 8(a) Program, and (2) were
still in business after they were no longer receiving 8(a) revenue. Procedures did not
provide for determining and reporting this data. Further, MED did not have the necessary
data in the 8(a) Financial Information System (FIS) to determine whether the 8(a) Program
was successful. Therefore, SBA and the Congress could not determine whether the 8(a)
Program was creating viable, sustainable businesses.

      Congress, as cited in Public Law 100-856, determined that 8(a) Program success
would be measured by using the following criteria:

       .•• the number of competitive firms that exit the Program without being unreasonably reliant
       on section 8(a) contracts and that are able to compete on an equal basis in the mainstream
       of the American economy.

Public Law 100-856 also requires the Administrator to

    -develop and implement a process for the systematic collection of data on the
      operations of the Program, and

    - analyze and report the causes of success and failure of small business concerns
      participating in the Program.

        SBA did not determine the number of 8(a) companies" ... that exit the Program
without being unreasonably reliant on Section 8(a) contracts," i.e., companies that did not
meet competitive mix requirements. While MED required companies in the 8(a) Program
to provide a breakout of 8(a) and non-8(a) revenues for MED's use in evaluating
compliance with competitive mix requirements, MED did not analyze the information to
determine whether companies leaving the B(a) Program had adequate experience with
non-B(a) work. Further, the FIS did not contain the necessary data forMED to determine
8(a) companies' experience with non-B(a) work over time. While SBA personnel input
each year's annual revenues into the FIS, the most current input replaced the previous
revenue data, leaving no historical data. The U. S. General Accounting Office (GAO)
recently criticized SBA for not having an adequate data system to produce basic
management information reports needed for 8(a) Program monitoring and analysis. The
GAO concluded that program managers did not have the needed data to determine
whether companies nearing the end of the program have sufficient experience with non-
S( a) contracting to provide a reasonable chance of success after exiting the Program.

     MED also did not compile enough data for SBA to report on the number of
companies exiting the Program that are able to compete on an equal basis in the

                                                   10
mainstream of the American economy. MED annually collected information about former
B(a) companies for three years after they exited the Program, citing the percentage of
these companies still in business in an annual report to Congress. Based on the
responses we received to our questionnaire, it appears that many of the companies used
in this presentation were still reliant on uncompleted S(a) contracts. Companies still
dependent on B(a) revenues cannot be considered companies competing on an equal
basis in the mainstream of the American economy. The companies we mailed our
questionnaire to had been out of the B(a) Program for approximately 1.5 to 5.5 years.
Almost 50 percent of those companies that responded to our questionnaire stated they had
8(a) revenue during their most recent fiscal year prior to receipt of the questionnaire.
Fifteen percent reported that their 8(a) revenue was more than 75 percent of their total
revenue. See Table 4 below.

                                          TABLE4

                8(a) Revenue as Percent of Total        Percent of Companies

                                                   0%                     43%
                     more than 0% and less than 25%                       14%
                    more than 25% and less than 50%                       10%
                    more than-50% and less than 75%                        8%

                                      more than 75%                       15%

                                        no response                       10%

        The data SBA compiled in the FIS was insufficient for us to meet the second
objective of our audit, to determine if meeting competitive mix requirements improved 8(a)
participants chances of success after leaving the Program. This information is, in effect,
the definition of success contained in Public Law 100-656. To be able to effectively
determine this, the FIS should contain

     - the competitive mix for each company during all 5 years of the Transitional stage,

     - the percent of 8(a) revenue to total revenue for the years after the company left the
       8(a) Program, and

     -the current address of each company or B(a) participant for three years after the
       company no longer has any B(a) revenue.

       MED was not required to determine, and the FIS did not contain, the necessary data
to track (1) the reliance B(a) companies leaving the S(a) Program had on 8(a) contracts,
or (2) the number of former B(a) companies that were still in business without S(a)

                                              11
revenues. As a result, S8A and the Congress could not determine whether the 8(a)
Program was accomplishing what it should, or whether any changes to the 8(a) Program
were needed.

Recommendations

      We recommend that the Associate Administrator for Minority Enterprise
Development take the following actions:

2A.    Compile, on an annual basis, the number of companies exiting the 8(a) Program
       that were and were not unreasonably reliant on 8(a) contracts.

28.    Track former 8(a) companies during the fifth, sixth and seventh years after each
       completed the 8(a) Program to determine whether they are still in business.
       Annually, determine (1) the percentage of these firms that were unreasonably
       reliant on 8(a) contracts that are still in business, and (2) the percentage of these
       firms that were not unreasonably reliant on 8(a) contracts that are still in business.

2C.    Ensure that the data needed to determine the above are maintained in the FIS.

SBA Management's Response

       The AA/MED concurred with recommendations 2A and 2C. He stated that MED
plans to track the monitoring of competitive mix through their new data system and will
define "not unreasonably reliant," as stated in finding 2A, to mean firms that have met their
competitive mix. The AA/MED did not comment on whether MED plans to track the
success rate of firms after they leave the 8(a) Program in their new data system.

     The AA/MED suggested we modify the first sentence of the original
Recommendation 28, which read:

      Track former 8(a) companies for three years after they no longer have 8(a) revenue to
      determine Whether they are still in business.

The AA/MED was concerned about implementing the recommendation, writing:

      .•. we do not have the inhouse capability required to effectively analyze this data and support
      specific conclusions concerning the success rate of 8(a) firms that complete their term. We
      are willing to work with the OIG and possibly a private contractor to develop the necessary
      expertise to ensure that data Is properly collected and supported by professional analysis.

The complete text of the AA/MED's response is contained in Appendix 1.




                                                   12
Evaluation of Management Response

      The proposed action on Recommendation 2A is responsive to the recommendation.

       We modified Recommendation 28 based on the suggested change. We are willing
to work with MED officials to implement this recommendation.

        Until MED officials determine how they will implement Recommendation 28, they
cannot determine how the new data system should maintain the needed data to implement
that recommendation. As such, we believe that MED's agreement to track the monitoring
of competitive mix through the new data system is responsive to Recommendation 2C at
this time. When the methodology is established under Recommendation 28, MED officials
should determine the feasibility of maintaining such data in their data system.




                                        13
                                                                 Appendix 1
                   U.S. SMALL BUSINESS ADMINISTRATION
                             WASHINGTON,   D.C. 20416




Date:   September 29, 1995

To:     Peter McClintock, AIG/ Austiijng

From:   Calvin Jenkins, AA/MED [FOIA Ex. 61

Subj:   OIG Draft Report Concerning Competitive Mix Requirements


        MED concurs with recommendation lA of subject report, that the AA/MED
        implement mandatory limits on the dollar value of 8(a) contracts for every 8(a)
        company not meeting its competitive mix requirement. A proposed regulation to
        effect this recommendation was written by MED (with significant input from the
        OIG), but was withdrawn from clearance in June of this year. The proposed
        regulation was withdrawn for future inclusion in the regulatory streamlining
        initiative that was recently developed by OGC. MED is currently considering the
        issuance of this regulation independent of the OGC streamlining initiative.

        I also concur with recommendation 2A that the AA/MED will compile, on an
        annual basis, the number of companies exiting the program that were not
        unusually reliant on 8(a) contracts. We interpret the language "not unreasonably
        reliant" to mean firms that have met the appropriate competitive mix. We are
        currently tracking this information manually as we monitor district compliance of
        annual review completion through the District Director goaling process. During
        the next fiscal year this monitoring will be automated through our new data
        system, SACS/MEDCOR.

        I agree that recommendation 2B would allow us to assess the success of 8(a)
        firms that exit the program. However, we do not have the inhouse capability
        required to effectively analyze this data and support specific conclusions
        concerning the success rate of 8(a) firms that complete their term. We are
        willing to work with the OIG and possibly a private contractor to develop the
        necessary expertise to ensure that data is properly collected and supported by
        professional analysis. Also, it is recommended, due to the fact that many
        contracts are for a base year and four option years, that the time period be
        extended to five years after program completion.

        In terms of recommendation 2C, the monitoring of competitive mix will be
        tracked through our new data system.


                                      14
                                                                   Appendix2

                                REPORT DISTRIBUTION

Recipient                                             Number of copies

Administrator                                              1

Deputy Administrator                                       1

Office of General Counsel                                  2

Associate Deputy Administrator for
      Minority Enterprise Development                      2

Associate Deputy Administrator for
      Management & Administration                          1

Director, Office of Financial Controls                     1

Associate Administrator for Field Operations               1

Assistant Administrator for Congressional &
       Legislative Affairs                                 1

U.S. General Accounting Office                             1




                                          15
